OIG Audit Report GR-30-98-010
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grant to the Town of Herndon, Virginia Police Department
 
GR-30-98-010
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Town of Herndon, Virginia Police Department (the Police
Department). The Police Department received a grant of: $75,000 to hire 1 officer under
the Funding Accelerated for Smaller Towns (FAST) program, and $675,000 to hire 9 officers
under the Universal Hiring Program (UHP). The purpose of the additional officers is to
enhance community policing efforts.
Our audit determined that the Police Department had implemented Community Policing
Services as described in the grant application, that costs claimed were reasonable and in
accordance with grant guidelines, and that the Police Department adhered to prescribed
reporting requirements.
The FINDINGS AND RECOMMENDATIONS section of the report contains additional information
in each of the above mentioned areas. Our SCOPE AND METHODOLOGY appear in the Appendix.
#####